ES, IG-99-011, Earth Observing System Common Spacecraft Planning and Management
EARTH OBSERVING SYSTEM (EOS)
COMMON SPACECRAFT PLANNING AND MANAGEMENT
IG-99-011
Executive Summary
Background.  In September 1995, NASA awarded a $398.7 million
cost-plus-award-fee contract (NAS5-32954) to TRW, Inc., for two Earth
Observing System (EOS) spacecraft, PM-1 and CHEM-1.  Separate options for
two additional spacecraft will, if exercised, increase the contract value to
$668.5 million.
The PM-1 and CHEM-1 spacecraft will serve as the platforms for obtaining
24 measurements (for example, measurements of clouds, precipitation, sea
ice, etc.) that comprise the core of the EOS mission.  TRW will design,
fabricate, integrate, test, deliver, and provide launch support and
sustaining engineering support for each spacecraft.  The PM-1 spacecraft is
scheduled for launch in 2000 and for CHEM-1 in 2002.
Objectives.  The overall objective of the audit was to evaluate
contract administration.  Specifically, we determined whether:
planned schedule and costs are being achieved,
quality control is adequate,
award fee determinations are correct, and
contractor performance is effectively monitored.
Details on the scope and methodology are in Appendix A.
Results of Audit.  In general, the EOS contractor-planned schedule
and cost performance is adequate, award fee determinations are correct, and
program and project officials have effectively monitored performance.
However, program management can be improved in the areas of quality control
and communication of award fee determinations.
NASA does not have assurance that the Defense Contract Management Command
(DCMC) is performing required quality assurance services.  Further, DCMC did
not finalize and submit its Agency Quality Assurance Plan for contract
NAS5-32954 in a timely manner.  Although the plan has now been submitted,
it has not been formally approved by NASA.  Finally, DCMC has not submitted
required status reports to the NASA Flight Assurance Manager at Goddard
Space Flight Center (Goddard).  The information is necessary to ensure that
quality assurance issues are addressed in a timely manner.
Event coordinators(1) disagreed with event monitors' assessment and scores
regarding contractor award fees and did not discuss the differences with the
event monitors.(2)  Without the opportunity to discuss and reach agreement,
award fee scores may not accurately reflect contractor performance.
Recommendations.  NASA should establish procedures to ensure the
Program contingency plan complies with Agency guidance for effective risk
management and establish a process to ensure the contingency plan is kept
current.
Recommendations.  We recommend that NASA:
ensure that DCMC performs required quality assurance services.
improve communication of award fee determination to participants
in the evaluation process.
Management's Response.  Management concurred with the
recommendations and has taken actions to correct the cited deficiencies.  The
complete text of the response is in Appendix E.  Management also provided
some comments on the finding discussion which were resolved in meetings
between the auditors and Goddard officials.
Evaluation of Response.  The actions taken are responsive, and
we consider the recommendations closed with the issuance of this report.
FOOTNOTES
1.  Event coordinators review and consolidate findings in
event reports, which include a section onthe assessment of the contractor's
performance and a corresponding score.
2.  Event monitors conduct ongoing evaluations of the
contractor's performance and write the assessments in the event reports.
Rev. 6/1/99